        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act Energy Efficiency
and Conservation Block Grant
Program– District of Columbia




OAS-RA-14-02                     November 2013
                                 Department of Energy
                                   Washington, DC 20585

                                      November 25, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act Energy Efficiency and
                         Conservation Block Grant Program – District of Columbia"

BACKGROUND

The Department of Energy's Energy Efficiency and Conservation Block Grant (EECBG)
Program received about $3.2 billion under the American Recovery and Reinvestment Act of 2009
to help state and local entities develop, implement and manage energy efficiency and
conservation projects. Of the funding provided, more than $2.7 billion was distributed to over
2,000 entities using a population-driven formula. In December 2009, the Department allocated
about $9.6 million to the District of Columbia government through the District Department of
the Environment (DDOE).

DDOE is the authority on energy and environmental issues affecting the District of Columbia
and administers multiple services and programs including energy assistance and weatherization
programs. The Program includes energy audits and retrofits for fire stations, public libraries,
recreation centers, non-profit organizations, small businesses, condominiums, cooperatives,
streetlights and homes. The District of Columbia's award, originally slated for completion by
December 2012, was extended until September 2013.

DDOE selected four District of Columbia government agencies and six non-profit community-
based organizations (CBOs) to assist in completing retrofits. The government agencies were
awarded about $5.5 million in funding to implement a district-wide strategy to improve energy
efficiency of publicly-owned facilities. About $2.2 million was awarded to CBOs that were to
perform retrofits and provide project management services for energy efficiency measure
installations. DDOE also allocated about $980,000 to facilitate contractor-conducted energy
audits through its existing Home Energy Rating System program, and $956,000 for award
administration/oversight of the retrofit work.

We initiated this audit to determine whether DDOE effectively managed EECBG funding.

RESULTS OF AUDIT

We identified multiple weaknesses that led us to question the sufficiency of DDOE's controls
over Program funding to CBOs. In particular, our audit revealed that DDOE had:
                                           2

• Awarded $630,000 to two CBOs, African Heritage Dancers and Drummers (AHDD), a
  performing arts organization, and Prosperity Media Enterprise (PME), a media
  organization, both of which lacked adequate experience in the area of energy efficiency
  retrofits. In our judgment, the evaluations performed by DDOE on these entities' funding
  proposals failed to recognize that these entities lacked the experience and track record to
  be successful. Further, DDOE's evaluation and selection of PME may have been
  improperly influenced by prior professional relationships between DDOE employees and
  a member of PME's team. Specifically, DDOE's selection of PME, which had no prior
  experience in energy efficiency retrofits, was based on PME's partnering with a former
  DDOE employee who had previously supervised two of the DDOE selection panel
  members.

• Advanced over $160,000 to three CBOs (AHDD, Arch Training Center, and Anacostia
  Economic Development Corporation) without assigning corresponding work. Federal
  regulations and award terms and conditions require recipients to minimize the time
  elapsed between receiving and disbursing Federal funds; however, these advances had
  not been used to further Program objectives, and remained outstanding for periods
  exceeding 14 months. The outstanding advances occurred because DDOE failed to
  conduct reconciliations in a timely manner. As of the completion of our audit, DDOE
  had not recovered advanced funds of $42,500 from AHDD. The District of Columbia
  had, however, repaid the outstanding balance to the Department using other DDOE
  funds.

• Not adequately monitored or corrected poor performance from PME and its contractors.
  DDOE inspections identified reimbursement claims for work not performed for 12 out of
  33 projects managed by PME, as well as substandard work on 19 of the 33 projects.
  Despite noted issues, DDOE allowed PME and its contractors to finish assigned projects
  without redirecting work to more capable CBOs. Further, DDOE had neither requested
  nor reviewed PME's inspection documentation until requested for our audit.

• Not notified the Department of unsatisfactory performance of duties and potential false
  claims by PME and its contractors as required by the special terms and conditions of its
  grant agreement. Even though DDOE had received multiple reimbursement claim
  submissions for work not performed by PME, essentially requests for payments that
  could have amounted to false claims, officials had not notified the Department or the
  Office of Inspector General of the actions.

• Not maintained sufficient supporting documentation in project files or adequately
  documented program costs as required by Federal regulations. For example, DDOE
  reimbursed another CBO, United Planning Organization (UPO), about $500,000 based on
  a standardized, spreadsheet template provided to UPO by its contractors, instead of
                                                3

       invoices its contractors typically used to support business transactions. After reviewing
       all EECBG costs through December 2012, about $4,000 in costs for PME remained
       unsupported, an amount we questioned.

Despite these problems, nothing came to our attention to indicate that the work performed by the
District of Columbia government entities awarded EECBG funds was not appropriately
completed.

We found that the issues identified occurred, primarily, because of an ineffective control
environment within DDOE relating to the grants we reviewed. Specifically, multiple controls
over the Program's CBO selection and evaluation process, as well as Program
monitoring/oversight, were inadequately designed and implemented. Additionally, DDOE had
not implemented a process to ensure timely reconciliation of advanced funds, and had not
demonstrated sufficient knowledge of fraud, waste and abuse detection, and prevention
measures. We also found that multiple personnel absences, when coupled with lack of defined
monitoring/oversight policies and procedures, contributed to the issues we identified. These
issues were not transparent to the Department because DDOE is a government entity, and
consistent with existing practices, was not required to provide detailed documentation supporting
its EECBG expenditures. Therefore, Department officials may not have had the information
necessary to identify these issues and take appropriate action.

To its credit, DDOE had taken a number of positive administrative and monitoring actions while
implementing the Program. DDOE had, in some instances, detected and disallowed overcharges
through inspections and had increased monitoring of PME when problems were identified. We
also found that DDOE had initiated several corrective actions as a result of our audit.
Specifically, officials informed us that they were in the process of establishing written policies
and procedures for the general management of programs and the overall selection process, had
addressed the invoicing concern with UPO, and were looking into other Department programs
which provided funds to PME, an organization which had been found to have performance issues
and a history of overcharging.

Effective internal controls provide assurance that taxpayer dollars are spent as intended and,
when properly enforced, can further the objectives of the EECBG Program. Without an adequate
control system in place, there is an increased risk of fraud, waste and abuse affecting this and
other Department and Federal programs managed by the District of Columbia.

Activities in this Program are a continuing source of concern. As such, the Office of Inspector
General continues our coordination with the Department, DDOE, and the CBOs to resolve
control and other identified issues. We have also made several recommendations to address the
concerns identified in our report.

MANAGEMENT REACTION AND AUDITOR COMMENTS

The Department and DDOE provided comments on the draft of this report. The Department
agreed with the recommendations and stated that it was working with DDOE to ensure that all
corrective actions were implemented. DDOE generally agreed with the recommendations and
                                              4

indicated that it had initiated corrective actions. We consider the comments and planned
corrective actions to be fully responsive to our findings and recommendations. The comments
from the Department and DDOE and our responses are more fully discussed in the body of the
report. The Department and DDOE comments are included in Appendix 3.


Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S AMERICAN
RECOVERY AND REINVESTMENT ACT ENERGY EFFICIENCY AND
CONSERVATION BLOCK GRANT PROGRAM – DISTRICT OF
COLUMBIA

TABLE OF
CONTENTS

Funding to the District of Columbia

Details of Finding .......................................................................................................................... 1

Recommendations and Management Reaction .............................................................................. 7

Auditor Comments ......................................................................................................................... 8


Appendices

1.    Objective, Scope and Methodology ....................................................................................... 9

2.    Prior Reports......................................................................................................................... 11

3.    Management Comments ....................................................................................................... 13
THE DEPARTMENT OF ENERGY'S AMERICAN RECOVERY AND
REINVESTMENT ACT ENERGY EFFICIENCY AND CONSERVATION
BLOCK GRANT PROGRAM – DISTRICT OF COLUMBIA

The Department of Energy's (Department) Energy Efficiency and Conservation Block Grant
(EECBG) Program received about $3.2 billion under the American Recovery and Reinvestment
Act of 2009 (Recovery Act) to help state and local entities develop, implement and manage
energy efficiency and conservation projects. The Department allocated about $9.6 million in
December 2009, to the District of Columbia government through the District Department of the
Environment (DDOE) to establish an EECBG Program.

To assist in completing the EECBG Program activities, DDOE selected four District of
Columbia government agencies and six community-based organizations (CBOs) to perform
retrofits on fire stations, public libraries, recreation centers, street lights, non-profit
organizations, small businesses, condominium cooperatives and homes in the District of
Columbia. The government agencies entered into memorandums of understanding with DDOE.
DDOE selected the EECBG CBOs from an established, approved vendor list that had been
developed in connection with its Weatherization Assistance Program (Weatherization Program).
Once selected, the CBOs entered into subgrant agreements with DDOE to provide project
management services to facilitate the installation of energy efficiency measures. These services
included managing contractors, installation work, documentation processing and inspections.
DDOE regularly contracts with CBOs to accomplish energy efficiency related activities and, in
turn, the CBOs receive an administrative fee to provide these services.

Although our audit was limited to the EECBG Program, we reviewed the Weatherization
Program proposal, evaluation and selection process, given DDOE's reliance on it to select
recipients for the EECBG Program. During our audit, we found multiple weaknesses in DDOE's
controls over its EECBG Program and noted opportunities for improvement regarding DDOE's
CBO evaluation and selection process and program monitoring.

                                  Evaluation and Selection Process

We identified significant weaknesses in DDOE's CBO evaluation and selection process. During
our audit, we found that DDOE awarded EECBG funds to two CBOs that lacked adequate
experience in energy efficiency retrofits. Specifically, African Heritage Dancers and Drummers
(AHDD), a performing arts organization, and Prosperity Media Enterprise (PME), a media
organization, were awarded about $170,000 and $460,000, respectively, to install, monitor and
inspect energy efficiency retrofits in eligible buildings. Such awards did not appear to be
prudent given the lack of prior experience with energy-related work and the basic missions of
these organizations. These organizations had limited knowledge in these areas, a deficit that
impacted their ability to sufficiently perform installation, monitoring and oversight functions. As
might be expected given their lack of qualifications, the two CBOs were subsequently identified
as having substantial problems. For example, AHDD had not returned about $42,500 in EECBG
funds advanced by DDOE even though it had not performed EECBG work. In addition, PME
had numerous performance and accountability concerns.




Page 1                                                                         Details of Finding
______________________________________________________________________

In our judgment, the evaluations performed by DDOE on these entities' funding proposals failed
to recognize that these entities lacked the experience and track record to be successful. For
example, DDOE's score for PME's proposal regarding the level of energy program experience in
weatherization and housing renovation activities totaled 27 out of a possible 30, a score similar
to those given to other CBOs with substantially more experience in performing energy
conservation projects. In addition, for the EECBG Program, despite the lack of experience,
AHDD and PME were also rated as a "medium" risk level, the same rating as other more
experienced CBOs.

According to DDOE officials, both organizations teamed with project managers with energy
efficiency expertise and, as a result, DDOE provided funding based on the presumed expertise of
the project manager even though neither organization had weatherization or energy efficiency
experience. We noted, however, that such focus may have been inappropriate in that the CBO's
EECBG work was not performed solely by one person. The CBOs had specific responsibilities
to complete a number of tasks, in addition to the project managers, and were to receive
compensation for those tasks. According to the evaluation scoring system utilized by DDOE, the
CBOs were to be scored by the committee based on the organization's experience level, not
solely on the experience level of an individual. CBOs were evaluated on factors such as
performance in weatherization or housing renovations and the capacity to undertake a timely and
effective weatherization program. The evaluation sheet contained separate sections on scoring
the proposal for the experience of subgrantees and individual resumes submitted.

In addition to concerns about the media organization's lack of qualifications, we also identified a
concern that DDOE's evaluation and selection of PME may have been improperly influenced by
prior professional relationships between DDOE employees and a member of PME's team. In
particular, DDOE awarded EECBG funding to PME based on its Weatherization Program
proposal, in which PME had teamed with a project manager that was also a former employee of
DDOE. This individual had separated from DDOE in March 2009 and applied for Department
funding through the Weatherization Program in August 2009. PME and the project manager
were awarded Weatherization Program funds by DDOE, and subsequently awarded EECBG
funds in June 2010, based on the Weatherization Program evaluation. We discovered that the
project manager had been a former supervisor to two of the six DDOE selection committee
members and the EECBG grant manager. DDOE was unable to provide any evidence that it had
considered whether the individual's previous employment in DDOE and his role as a former
supervisor of two of the selecting officials should have precluded him from working with the
agency on these matters.

The project manager's resume submitted to DDOE purported to demonstrate that the individual
had managed and directed multiple energy programs within DDOE. However, DDOE officials
told us that the project manager, who previously worked as a senior DDOE official, did not have
as extensive a role within the organization as described in the resume submitted with PME's
proposal. In fact, the officials indicated that the project manager had "embellished" the resume
and did not have the experience presented. However, this assertion is inconsistent with the
DDOE official's previous statements that PME's selection had primarily been based on this
individual's technical experience. Based on the supporting documentation provided, we were
unable to determine that the individual had falsely represented any of the prior experience


Page 2                                                                          Details of Finding
______________________________________________________________________

annotated on the resume. Further, one DDOE official stated that the evaluation committee may
not have reviewed the individual's resume in much detail because the committee was aware of
the individual's experience based on the familiarity with the individual's previous role within
DDOE.

                                 EECBG Program Monitoring

We found weaknesses in EECBG Program monitoring pertaining to advanced funding provided
to CBOs, correcting and notifying the Department of the poor performance of duties by one CBO
and its contractors, and project file supporting documentation. Under the award terms and
conditions, DDOE was responsible for management and oversight of all EECBG activities.
However, we found that DDOE:

    • Advanced over $160,000 to three of six CBOs without assigning corresponding EECBG-
      related projects/work. As a regular business practice, DDOE had advanced the six CBOs
      EECBG funding as working capital. Federal regulations and terms and conditions of the
      award state that recipients should minimize the time elapsed between receiving and
      disbursing Federal funds. Ultimately, because DDOE failed to perform reconciliations of
      advances to corresponding expenditures in a timely manner, it was over 14 months before
      one CBO, Anacostia Economic Development Corporation, returned the unused funds and
      16 months for another CBO, Arch Training Center. Additionally, AHDD never returned
      the unused advanced funding. DDOE officials stated that they were always aware of
      outstanding advances; however, the only formal method for tracking advances was
      through annual program reconciliation.

       To address the advanced funding issue, DDOE stated it had subsequently adopted a
       reimbursement-only policy; however, we found that the policy had not been formalized
       in writing. Additionally, despite its assertion, we found that DDOE continued advancing
       funds to at least one CBO, United Planning Organization (UPO). In fact, during our
       audit, we found that DDOE had directed UPO to submit invoices for EECBG work even
       if the work had not been completed. In turn, DDOE paid UPO the requested amounts.
       Officials told us this process was necessary to provide UPO with funding while fiscal
       year reconciliations were conducted because that routine usually caused a lapse in
       payments. By continuing to advance funds, DDOE negated the corrective action
       intended to resolve the advanced funding issue. Further, DDOE's practice of directing
       CBOs to submit invoices for work not completed calls into question the integrity of the
       EECBG invoicing submission and approval process.

    • Had not adequately monitored and corrected poor performance from PME and its
      contractors. Specifically, in reviewing DDOE's documentation, we found 12 of 33
      projects had instances in which the invoices submitted by PME's contractors claimed
      reimbursement for work not performed and 19 of the 33 jobs failed inspection by DDOE.
      Further, three of the contractors used by PME failed the DDOE quality control inspection
      at a rate of more than 57 percent, with one contractor's failure rate exceeding 91 percent.
      DDOE documentation of its inspections of PME's work showed that DDOE personnel
      had noted PME submitted claims for installations that were found not to have been


Page 3                                                                       Details of Finding
______________________________________________________________________

     installed, items referenced as "priced too high," incomplete jobs, and jobs with quality
     issues. DDOE officials stated that PME had been assigned a group of 33 projects in the
     beginning phase of the award, additional work was not given after issues were identified,
     and it seemed an appropriate policy to give the responsible entity an opportunity to
     correct the deficiency or address the problem. DDOE also had not paid the invoices
     containing the potential false submissions in the instances we reviewed and had
     performed its own follow-up inspections to ensure that agreed-upon work had been
     completed and matched the invoiced amounts. While we agree the initial actions were
     prudent, DDOE had not addressed the systemic issues by allowing PME and its
     contractors to continue work on tasks included in previously assigned projects without
     redirecting work to more capable CBOs.

     According to PME's agreement with DDOE, work performed by contractors must be
     monitored and inspected by the CBO. We found, however, that DDOE had neither
     requested nor reviewed PME's inspection documentation. During our audit, we requested
     PME's post-installation monitoring documentation to provide evidence these inspections
     had occurred. Once this information was received, however, we identified multiple
     inconsistencies between PME's invoice submissions and inspection reports when
     compared to inspections subsequently performed by DDOE. For example, PME
     submitted an invoice for one project that included charges for four energy efficiency
     measures, two of which PME had not inspected. Those measures subsequently failed
     DDOE inspection. Although an official for PME stated that several contractors were
     ultimately terminated, we noted that PME had continued to submit the improper claims
     even though inspections of the installations noted that they failed or were incomplete.

   • Had not notified the Department of unsatisfactory performance of duties and potential
     false claims by PME and its contractors. The terms and conditions of the EECBG award
     agreement required DDOE to promptly notify the Department or Office of Inspector
     General of any credible evidence that a contractor, subgrantee, or subcontractor had
     submitted a false claim under the False Claims Act, or similar misconduct involving
     EECBG funds. DDOE had not notified the Department regarding multiple claim
     submissions from PME for work not performed, a practice we viewed as representing a
     series of potential false claims.

   • Had not maintained sufficient supporting documentation in project files or adequately
     documented program costs as required by Federal regulations. For UPO, DDOE had
     accepted a standardized spreadsheet template as support for EECBG expenses instead of
     invoices its contractors typically used to support business transactions. Specifically, this
     condition existed for 42 of 45 projects managed by UPO, totaling about $500,000. After
     our review of all EECBG costs incurred through December 2012, DDOE officials
     worked with the District of Columbia's Chief Financial Officer, the CBOs, and
     contractors to obtain and provide adequate supporting documentation for the majority of
     EECBG Program costs. However, DDOE was unable to provide support for about
     $4,000 at PME, an amount we questioned as unsupported.




Page 4                                                                        Details of Finding
______________________________________________________________________

                 Establishment and Implementation of Policies and Procedures

We found the identified issues occurred because of an ineffective control environment at DDOE
relating to the grants we reviewed. Specifically, we found that weaknesses identified in the CBO
selection and evaluation process were a result of inadequately designed or implemented
procedures. Regarding the selection of PME based on its partnering with a former DDOE
employee, we found that the evaluation team had not consulted the general counsel or the ethics
officer despite the connection with the former employee. Further, although DDOE had clear
evaluation criteria, we found the technical evaluation criteria to be inadequately implemented by
DDOE selection committee personnel. For example, one committee member, who previously
worked directly for PME's project manager while at DDOE, scored the media company 97 out of
a possible 100 points, a score that, in our judgment, was clearly not warranted. We based our
conclusion on the fact that the criteria included areas such as experience and the CBOs matching
of funds; however, PME had no relevant technical experience and had not provided matching
funds, despite the high score.

The weaknesses in program monitoring occurred, in part, because DDOE had not adequately
implemented and documented policies and procedures for managing the EECBG Program. For
example, DDOE had not implemented a process to ensure timely reconciliation of EECBG
funding advances. While DDOE officials told us they reviewed the funds advanced to several
CBOs as part of an annual process, in actuality the final reconciliation did not occur until about
14 months after the original advance date. Although DDOE could explain the processes used for
monitoring CBOs and subgrantees, these processes had not been documented. DDOE officials
told us that CBO inspection reports had been submitted to DDOE for review after inspections
were conducted. However, in the absence of written policies and controls, we found that the
application of the informal processes had been inconsistently applied. In particular, DDOE had
not requested or reviewed the inspection reports from PME before our audit. We also found that
DDOE had not established or set a standard for documentation requirements in project files, and
program managers over the various areas within DDOE had not been required to document how
they managed their specific programs.

Further, we found the lack of notification of unsatisfactory performance of duties and potential
false claims occurred because DDOE officials lacked training in fraud, waste and abuse detection
and prevention measures. DDOE officials stated that they had not received training in these
areas. As a result, DDOE officials had not recognized the reimbursement requests for
incomplete and/or improperly performed work to represent potential false claims, and instead
viewed the requests simply as demonstrating unsatisfactory performance. DDOE officials also
stated that they were not aware that they could take administrative action based solely on
performance-related issues as opposed to fraud.

With regard to adequately monitoring and correcting poor performance of the CBOs and their
contractors, we found that DDOE had not maintained formal records of vendors, subgrantees,
and/or persons with whom it had performance issues. Rather, officials stated that they knew the
record of various organizations based on internal experiences. DDOE officials stated that they
had a "mutual understanding" that DDOE would no longer work with specific CBOs or their
contractors. However, the officials had not formalized this understanding.


Page 5                                                                        Details of Finding
______________________________________________________________________


We found that another contributing factor was the loss of institutional knowledge due to turnover
of experienced staff. We identified multiple examples of personnel turnover that created
temporary losses of institutional knowledge. This, combined with the lack of documented
policies and procedures, created an environment rife with control concerns. For example, in
three instances we identified, key DDOE officials took extended leave and multiple DDOE
officials noted that the lack of written policies disrupted operations because interim personnel
performing the responsibilities were unclear on how the program was to be managed. It was
under the interim individual's supervision in which the concerns were noted with the advances.

The issues we identified were not transparent to the Department because DDOE was treated as a
state entity by the Department, and under the existing financial assistance award agreement, was
not required to provide detailed documentation supporting its EECBG expenditures. As such,
the Department may not have had the information necessary to identify the issues and take
appropriate corrective action.

                                     Impact and Path Forward

Effective internal controls provide assurance that entities identify, detect and mitigate risks that
can hinder operations and program objectives. Without a proper control system in place, there is
an increased risk for fraud, waste and abuse. In the case of DDOE, some of the risks were
realized, with the overall control environment greatly contributing to the issues within the
EECBG Program. Further, because the District of Columbia and DDOE manage other
Department and Federal programs, it is essential that effective controls are implemented and
followed.

Although we remain concerned about DDOE's overall monitoring of the CBOs, to its credit,
DDOE had taken a number of positive steps while implementing the EECBG Program, including
developing administrative systems and monitoring tools designed to ensure proper accounting
for Recovery Act funding and compliance with laws and regulations. Specifically, DDOE had
detected and disallowed about $23,000 in overcharges through its post-installation inspections
for one CBO before payment had been made. DDOE had also increased the number of projects
reviewed by DDOE officials in response to the identified problems with this CBO. In addition,
even though DDOE had not recovered advanced funds from one CBO, it returned those funds to
the Department from its own funding sources.

We found that DDOE also had initiated multiple corrective actions as a result of our audit.
DDOE officials told us they are in the process of establishing written policies and procedures
relating to general management of programs and the overall selection process. Specifically,
DDOE officials stated they are developing standard operating procedures that will incorporate
changes to DDOE's application and selection process and that the new Fiscal Year 2014 request
for applications included a requirement for applicants to provide quality assurance plans with
their applications. DDOE officials also told us that they have instituted additional controls over
the selection process, including prohibiting program staff from participating in evaluation panels,
and requiring signed confidentiality and conflict of interest statements from evaluation panel
reviewers. Further, officials informed us that they have taken action to revise DDOE's internal


Page 6                                                                          Details of Finding
______________________________________________________________________

reconciliation process. DDOE officials also told us they had addressed the invoicing issue with
the CBO that had submitted spreadsheets instead of invoices. Finally, DDOE officials said that
they were looking into other Department programs that had funded the CBO with performance
issues and overcharges. Officials stated that the same types of issues were noted in at least one
other Department program. We found these actions generally responsive. However, because
DDOE is in the process of initiating and documenting the changes to its organization, these
actions remain to be fully completed.

The actions taken thus far should, if fully implemented, help resolve problems with the District
of Columbia's administration of financial assistance award. However, more remains to be done.
As such, we recommended a number of corrective measures.

RECOMMENDATIONS

To address the problems outlined in our report, we recommend that the Assistant Secretary for
Energy Efficiency and Renewable Energy require DDOE, as part of its administration of
Department funds, to:

    1. Evaluate the selection process for future awards and those with remaining funding to
       ensure Federal regulations governing working with former employees are addressed and
       established evaluation criteria is implemented effectively;

    2. Complete and implement written policies and procedures relating to program
       management and advanced funds;

    3. Evaluate monitoring processes to ensure performance and overcharging issues are
       documented and addressed formally;

    4. Provide training to personnel on fraud, waste and abuse, and the suspension and
       debarment process; and

    5. Establish procedures to notify the Department of potential fraud, waste, abuse and
       mismanagement.

We also recommend that the Contracting Officer for the DDOE's EECBG Program:

    6. Resolve the questioned costs identified in our report.

MANAGEMENT REACTION

The Department and DDOE generally agreed with the recommendations in the report. The
Department stated it had been working with DDOE to ensure that all corrective actions were
implemented. For example, the Department planned to review, comment, and monitor
implementation of improved policies and procedures related to conflicts of interest; request for
application documentation; subgrantee performance issues; and notifications of potential fraud,
waste, abuse and mismanagement. Additionally, the Department stated that it would work with


Page 7                                        Recommendations and Management Reaction
______________________________________________________________________

DDOE, and provide resources as needed and available, to assist DDOE in adequately training its
staff. In regard to our questioned costs, the Department stated that it was actively working with
DDOE to resolve the amounts. The Department stated that it would require DDOE to complete
its corrective actions on or about December 6, 2013.

DDOE stated it had initiated corrective actions and had begun to integrate our recommendations
into the EECBG Program. Specifically, DDOE stated it had drafted policies and procedures to
improve upon program areas cited in our report. DDOE asserted that its mandatory ethics
training provides some fraud, waste and abuse training. DDOE also stated that it would add
training for personnel on issues identified in our report, including identifying and reporting
potential fraud, and procedures for suspension and debarment. However, DDOE expressed
concern that our report extrapolated findings to the control environment of the entire agency,
based on our review of only one grant. In addition, while DDOE acknowledged that it had been
unable to provide a specific invoice to support the $4,000 expenditure questioned in our report, it
indicated that the costs, related to the installation of a boiler, were justified. Specifically, DDOE
stated that it had post-installation documentation evidencing that the boiler had been installed
and had conducted price research to support the boiler's fair market value.

AUDITOR COMMENTS

The comments received from the Department and DDOE were responsive to our
recommendations. We clarified in our report that our assessment of DDOE's control
environment was specific to the EECBG and Weatherization Assistance grants reviewed. The
Department indicated in its response that it would work with DDOE to resolve the questioned
costs.

The comments from the Department and DDOE are included in Appendix 3.




Page 8                                                                         Auditor Comments
Appendix 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine the sufficiency of internal controls over the District
of Columbia's Department of the Environment (DDOE) Energy Efficiency and Conservation
Block Grant (EECBG) funding.

SCOPE

The audit was performed at the Department of Energy's (Department) Headquarters, DDOE
Headquarters, and the District Office of the Chief Financial Officer in Washington, DC, as well
as selected subrecipient locations. We limited our scope to the EECBG Program and the
evaluation process for the Weatherization Assistance Program.

METHODOLOGY

To accomplish the audit objective, we:

    • Conducted interviews and meetings with Department and DDOE officials.

    • Reviewed applicable laws, regulations, and policies and procedures pertaining to the
      EECBG Program under the American Recovery and Reinvestment Act of 2009.

    • Determined applicable cost principles and procurement standards.

    • Reviewed all invoices and conducted a complete review of DDOE's records for
      reimbursements submitted as of December 31, 2012.

    • Reviewed prior audits of the EECBG Program conducted by the Department's Office of
      Inspector General and the U.S. Government Accountability Office.

    • Obtained access to the Department's Strategic Integrated Procurement Enterprise System
      and reviewed individual award files for the DDOE's EECBG Program.

    • Reviewed the Department's and DDOE's risk assessments and implementation of
      mitigation measures.

    • Reviewed the Department's site visit documentation for all reviews completed from
      inception of the award to December 31, 2012.

    • Examined DDOE's monitoring documents for the EECBG Program. Specifically, we
      reviewed the last three quarterly reports as of December 31, 2012. We judgmentally
      sampled seven monthly monitoring reports based on known project activities and
      advancement timeframes. We also judgmentally sampled invoices within the home


Page 9                                                      Objective, Scope and Methodology
Appendix 1 (continued)

       energy rating program based on duplicate names and addresses, and traced the invoices to
       entries within the internal system to verify duplicate payments were not made. Because
       we did not use a statistical sample, we could not project to the population.

    • Conducted site visits to District of Columbia agencies, three community-based
      organizations, one contractor and eight project sites. We judgmentally selected the
      locations based on attributes including EECBG activities, project descriptions and project
      costs.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audits included tests of
controls, and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We considered the establishment of
Recovery Act performance measures that included certain aspects of compliance with the GPRA
Modernization Act of 2010, as necessary to accomplish the objective. We conducted an
assessment of computer-processed data relevant to our audit objective and found it to be reliable.

We conducted an exit conference with the Department and DDOE on November 22, 2013.




Page 10                                                    Objective, Scope and Methodology
Appendix 2


                                     PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General has
initiated a series of audits designed to evaluate the Department of Energy's Energy Efficiency
and Conservation Block Grant Program. Our series of audit reports include the following:

    • Examination Report on South Carolina Energy Office – Energy Efficiency and
      Conservation Block Grant Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-13-21, May 2013).

    • Audit Report on The Department of Energy's American Recovery and Reinvestment Act
      Energy Efficiency and Conservation Block Grant Program – State of Colorado and
      County of Boulder, Colorado (OAS-RA-13-16, March 2013).

    • Examination Report on Connecticut Department of Energy and Environmental
      Protection – Energy Efficiency and Conservation Block Grant Program Funds Provided
      by the American Recovery and Reinvestment Act of 2009 (OAS-RA-13-14, February
      2013).

    • Examination Report on Texas State Energy Conservation Office − Energy Efficiency and
      Conservation Block Grant Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-13-13, February 2013).

    • Examination Report on City of Los Angeles − Energy Efficiency and Conservation Block
      Grant Program Funds Provided by the American Recovery and Reinvestment Act of 2009
      (OAS-RA-13-12, February 2013).

    • Examination Report on North Carolina State Energy Office − Energy Efficiency and
      Conservation Block Grant Program Funds Provided by the American Recovery and
      Reinvestment Act of 2009 (OAS-RA-13-09, February 2013).

    • Audit Report on The Department's Implementation of Financial Incentive Programs
      under the Energy Efficiency and Conservation Block Grant Program (OAS-RA-L-13-02,
      December 2012).

    • Examination Report on The Department of Energy's American Recovery and
      Reinvestment Act Energy Efficiency and Conservation Block Grant Program – Efficiency
      Maine Trust (OAS-RA-13-04, November 2012).

    • Examination Report on County of Los Angeles – Energy Efficiency and Conservation
      Block Grant Program Funds Provided by the American Recovery and Reinvestment Act
      of 2009 (OAS-RA-13-02, October 2012).




Page 11                                                                         Prior Reports
Appendix 2 (continued)

   • Examination Report on California Energy Commission – Energy Efficiency and
     Conservation Block Grant Program Funds Provided by the American Recovery and
     Reinvestment Act of 2009 (OAS-RA-13-01, October 2012).

   • Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
     Grant Program Funded under the American Recovery and Reinvestment Act for the City
     of Philadelphia (OAS-RA-12-09, April 2012).

   • Special Report on Lessons Learned/Best Practices during the Department of Energy's
     Implementation of the American Recovery and Reinvestment Act of 2009
     (OAS-RA-12-03, January 2012).

   • Audit Report on The State of Nevada's Implementation of the Energy Efficiency and
     Conservation Block Grant Program (OAS-RA-12-02, November 2011).

   • Letter Report on The Department of Energy's Energy Efficiency and Conservation Block
     Grant Program Funded under the American Recovery and Reinvestment Act for the State
     of Pennsylvania (OAS-RA-L-11-11, September 2011).

   • Management Alert on The Status of Energy Efficiency and Conservation Block Grant
     Recipients' Obligations (OAS-RA-11-16, September 2011).

   • Audit Report on The Department of Energy's Implementation of the Energy Efficiency
     and Conservation Block Grant Program under the Recovery and Reinvestment Act: A
     Status Report (OAS-RA-10-16, August 2010).




Page 12                                                                      Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 3




Page 14      Management Comments
Appendix 3




Page 15      Management Comments
Appendix 3 (continued)

                 DISTRICT OF COLUMBIA COMMENTS




Page 16                                     Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
                                                                    IG Report No. OAS-RA-14-02

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's
       overall message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.



Name                                                Date

Telephone                                           Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
